   DEPARTMENT OF HEALTH & HUMAN SERVICE                             OFFICE OF INSPECTOR GENERAL

                                                                    Office of Audit Services, Region III
                                                                    Public Ledger Building, Suite 316
                                                                    150 S. Independence Mall West
                                                                    Philadelphia, PA 19106-3499

July 9, 2010

Report Number: A-03-10-10002

Mr. Frank G. Gomes
Compliance Officer
Washington Hospital Center
100 Irving Street NW
Washington, DC 20010

Dear Mr. Gomes:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Payments for Outpatient Infusion Therapy and Blood
Administration Services Provided at Washington Hospital Center, Washington, DC. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov, or contact Bernard Siegel,
Audit Manager, at (215) 861-4484 or through email at Bernard.Siegel@oig.hhs.gov. Please refer
to report number A-03-10-10002 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Frank G. Gomes

cc:
Michele A. Daley-Ryan
Manager
Monitoring & Inspections
Highmark Medicare Services Inc.



Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  PAYMENTS FOR OUTPATIENT
    INFUSION THERAPY AND
BLOOD ADMINISTRATION SERVICES
        PROVIDED AT
WASHINGTON HOSPITAL CENTER,
       WASHINGTON, DC



                       Daniel R. Levinson
                        Inspector General

                           July 2010
                         A-03-10-10002
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Prior to October 1, 2005, section 1816(a) of the Act authorized CMS to contract with fiscal
intermediaries. For purposes of this report, the term “Medicare contractor” means the fiscal
intermediary, carrier, or Medicare administrative contractor, whichever is applicable. Medicare
contractors use CMS’s outpatient prospective payment system to process and pay Medicare
Part B claims for outpatient hospital services submitted by hospitals (providers) on a rate-per-
service basis using the ambulatory payment classification group assigned to each service.

CMS requires providers to bill accurately using the appropriate revenue codes and Healthcare
Common Procedure Coding System (HCPCS) codes and to report the correct units of service
performed. Revenue codes identify the cost center used on the hospital’s annual cost report.
HCPCS codes are used to identify and group services into an ambulatory payment classification
group. When providers performed multiple procedures for the same beneficiary on the same
date of service, the system pays the maximum allowable payment for the first procedure and,
generally, half the maximum allowable payment for each additional procedure. For other
services, Medicare only pays for one service per day, regardless of the number of procedures
performed. Payment for some specific outpatient services is included in the payment for the
primary surgical procedure. Medicare refers to these types of services as “packaged” or
“bundled” services. Medicare does not allow payment of bundled or packaged services on a
rate-per-service basis.

Washington Hospital Center (the hospital) is a 926-bed acute-care teaching and research hospital
located in the District of Columbia. The hospital is a member of MedStar Health, a not-for-profit
regional healthcare system. Before October 1, 2005, CareFirst of Maryland was the fiscal
intermediary for the hospital. On October 1, 2005, Highmark Medicare Services (Highmark)
became the hospital’s fiscal intermediary and, subsequently, on October 24, 2007, the Medicare
administrative contractor. As the current Medicare contractor for the hospital, Highmark is
responsible for collecting overpayments for the hospital’s claims.

OBJECTIVE

Our objective was to determine whether payments received by the hospital from its Medicare
contractor were appropriate for outpatient infusion therapy and blood administration services
billed by the hospital.

SUMMARY OF FINDING

Payments received by the hospital from its Medicare contractor for 260 claims were not
appropriate. Each of these claims had errors relating to outpatient infusion therapy or blood
administration services. As a result, the hospital received overpayments totaling $34,059. The
hospital received $56,468 for 477 outpatient services, rather than the allowable amount, $22,409


                                                i
for 162 outpatient services, resulting in overpayments totaling $34,059 for 315 outpatient
services.

RECOMMENDATIONS

We recommend that the hospital:

   •   return the $34,059 for the 315 outpatient procedure overpayments and

   •   review claims with these outpatient services paid by the Medicare contractor after
       December 31, 2007, and return any overpayments identified.

HOSPITAL COMMENTS

In written comments, the hospital described the actions it had taken and said that it would
voluntarily refund the identified overpayments. The hospital stated that it received these
overpayments because the billing and coding for these services in its “CDM” (charge description
master) were not accurate. The hospital’s comments are included in the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION...................................................................................................................... 1

          BACKGROUND ............................................................................................................. 1
              Medicare Contractors ............................................................................................ 1
              Hospital Outpatient Prospective Payment System ................................................1
              Outpatient Services ...............................................................................................2
              Washington Hospital Center .................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3
               Objective ............................................................................................................... 3
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

          PAYMENT FOR OUTPATIENT SERVICES GREATER THAN ONE ........................ 4
              Multiple Infusion Therapy Services...................................................................... 4
              Multiple Blood Administration Services .............................................................. 4

          PAYMENT FOR SURGERY-RELATED INFUSION THERAPY SERVICES ............ 5

          RECOMMENDATIONS .................................................................................................. 5

          HOSPITAL COMMENTS ............................................................................................... 5

APPENDIX

          WASHINGTON HOSPITAL CENTER COMMENTS




                                                                     iii
                                                  INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

Prior to October 1, 2005, section 1816(a) of the Act authorized CMS to contract with fiscal
intermediaries. 1 Medicare contractors process and pay Medicare Part B claims submitted by
hospital outpatient departments (providers). Medicare contractors also conduct reviews and
audits, and safeguard against fraud and abuse. CMS’s Intermediary Manual, Pub. 13, part 3,
section 3700, provides that Medicare contractors must maintain adequate internal controls over
automatic data processing systems to prevent increased program costs and erroneous or delayed
payments. To process providers’ claims for hospital outpatient services, Medicare contractors
use the Fiscal Intermediary Standard System and CMS’s Common Working File. These systems
can detect certain improper payments during prepayment validation.

Hospital Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS established the Prospective
Payment System for Hospital Outpatient Services (Final Rule), effective July 1, 2000. 2

CMS’s Medicare Claims Processing Manual, Pub. 100-04 (Manual), requires providers to bill
accurately using the appropriate revenue codes and Healthcare Common Procedure Coding
System (HCPCS) codes and to report the correct units of service performed. 3 Revenue codes
identify the cost center used on the hospital’s annual cost report. The outpatient prospective
payment system uses the HCPCS code to identify and group services into an ambulatory
payment classification group.

Medicare contractors use CMS’s outpatient prospective payment system to pay for outpatient
hospital services on a rate-per-service basis using the ambulatory payment classification group
assigned to each service. When providers performed multiple procedures for the same
beneficiary on the same date of service, the system pays the maximum allowable payment for the
first procedure and, generally, half the maximum allowable payment for each additional


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
between October 2005 and October 2011. Most, but not all, of the Medicare administrative contractors are fully
operational; for jurisdictions where the Medicare administrative contractors are not fully operational, the fiscal
intermediaries and carriers continue to process claims. For purposes of this report, the term “Medicare contractor”
means the fiscal intermediary, carrier, or Medicare administrative contractor, whichever is applicable.
2
    See 65 Fed. Reg. 18433-18820 (April 7, 2000).
3
    See chapter 1, section 80, and chapter 4, section 20.


                                                            1
procedure. For other services, Medicare only pays for one service per day, regardless of the
number of procedures performed.

Payment for some specific outpatient services is included in the payment for the primary surgical
procedure. Medicare refers to these types of services as “packaged” or “bundled” services.
Medicare does not allow payment of bundled or packaged services on a rate-per-service basis.

Outpatient Services

Infusion Therapy Services

Infusion therapy is the administration of fluids and medication through an intravenous injection.
For nonchemotherapy infusion, providers generally bill using revenue code 0260 (intravenous
therapy) and HCPCS code Q0081 (infusion therapy–other than chemotherapy). For
chemotherapy infusion, providers generally bill using revenue code 0331 or 0335 (radiology–
therapeutic: chemotherapy administration by injection or intravenous) and HCPCS codes Q0083
through Q0085 (chemotherapy). Beginning January 1, 2005, CMS changed the HCPCS codes
for infusion therapy services annually. 4

During outpatient surgical procedures, patients receive nonchemotherapy infusion therapy for
hydration and the administration of other injectable drugs, including anesthesia. Generally,
Medicare does not pay for these infusion therapy services separately because the payment for the
surgical procedure includes payment for these packaged services.

When a provider administers nonchemotherapy infusion that is not part of a surgical procedure
or administers a chemotherapy infusion, Medicare pays providers only for one infusion therapy
service per visit, regardless of the number or volume of different fluids infused. Medicare pays
for multiple infusion therapy services provided on the same day only when they are performed
during separate visits.

Blood Administration Services

Blood administration includes the transfusion of blood and any blood product. Generally,
providers bill for blood administration using revenue code 0391 (blood storage and processing –
blood administration) and HCPCS code 36430 (transfusion–blood or blood components).
Medicare pays providers for only one blood administration service per day, regardless of the
number or volume of different blood products transfused. Providers bill and Medicare pays for
the transfused blood and blood products separately.

Washington Hospital Center

Washington Hospital Center (the hospital) is a 926-bed acute-care teaching and research hospital
located in the District of Columbia. The hospital is a member of MedStar Health, a not-for-profit
4
  For calendar years 2005 through 2007, the HCPCS codes used, as appropriate for the first/subsequent units
administered per visit, were 90780/90781, C8950/C8951, and 90760/90761, respectively. Before 2007, Medicare
did not generally pay for quantities greater than one unit per visit. However, Medicare required providers to report
the total number of hours of infusion therapy administered. Beginning 2007, and depending on the type of service
provided, Medicare paid for subsequent units at a reduced rate.


                                                          2
regional healthcare system. Before October 1, 2005, CareFirst of Maryland was the fiscal
intermediary for the hospital. On October 1, 2005, Highmark Medicare Services (Highmark)
became the hospital’s fiscal intermediary and, subsequently, on October 24, 2007, the Medicare
administrative contractor. As the current Medicare contractor for the hospital, Highmark is
responsible for collecting overpayments for the hospital’s claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments received by the hospital from its Medicare
contractor were appropriate for outpatient infusion therapy and blood administration services
billed by the hospital.

Scope

We reviewed payments totaling $56,468 that the Medicare contractor paid the hospital for
477 outpatient infusion therapy and blood administration services on 260 claims from January 1,
2003, through December 31, 2007. We limited our review of the hospital’s internal controls to
those applicable to these outpatient service claims because our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our review
allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained
from the National Claims History file, but we did not assess the completeness of the file.

We conducted fieldwork from November 2009 through May 2010. Our fieldwork included
contacting the hospital.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify claims paid for hospital outpatient
        infusion therapy and blood administration services with more than one unit per day and
        infusion therapy services that were provided as part of outpatient surgical procedures;

   •    contacted the hospital and requested that it determine whether the claims were
        overpayments and, if not, why the claims were not overpayments;

   •    reviewed documentation provided by the hospital for its sample of 111 of the
        315 questioned services we identified; and

   •    discussed the overpayments with hospital personnel to determine why the overpayments
        occurred.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


                                                3
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Payments received by the hospital from its Medicare contractor for 260 claims were not
appropriate. Each of these claims had errors relating to outpatient infusion therapy or blood
administration services. As a result, the hospital received overpayments totaling $34,059. The
hospital received $56,468 for 477 outpatient services, rather than the allowable amount, $22,409
for 162 outpatient services, resulting in overpayments totaling $34,059 for 315 outpatient
services. The hospital stated that it received these overpayments because the billing and coding
for these services in its “CDM” (charge description master) were not accurate.

PAYMENT FOR OUTPATIENT SERVICES GREATER THAN ONE

For 156 claims, the hospital billed and received payment for excessive services because it billed
Medicare for services greater than one: 99 claims for excessive infusion therapy services and
57 claims for excessive blood administration services.

Multiple Infusion Therapy Services

CMS’s Manual, chapter 4, section 230.2.1, limits infusion therapy for nonchemotherapy and
chemotherapy services to one service per visit, regardless of the number or volume of different
fluids infused for services furnished.

For 99 claims, the hospital billed and received payment for excessive services because it billed
Medicare for more than one infusion therapy service per visit. The hospital billed and received
payment for 226 infusion therapy services of which 121 were in excess of one per visit. The
hospital received $25,334 for these infusion therapy services, rather than the allowable amount,
$12,405, resulting in overpayments totaling $12,929.

Multiple Blood Administration Services

CMS’s Manual, chapter 4, section 231.8, states that providers should bill for blood transfusion
services (HCPCS code 36430) on a per service basis. Medicare will pay the provider for
transfusing blood products once per day, regardless of the number or volume of different blood
products transfused.

For 57 claims, the hospital billed and received payments for excess blood administration services
because it billed Medicare for more than one blood administration service for each date of
service. The hospital billed and received payment for 121 blood administration services of
which 64 were in excess of one per day. The hospital received $21,236 for these blood
administration services, rather than the allowable amount, $10,004, resulting in overpayments
totaling $11,232.




                                                4
PAYMENT FOR SURGERY-RELATED INFUSION THERAPY SERVICES

The preamble to CMS’s Final Rule described packaged services as those that are directly related
and integral in the performance of certain outpatient procedures and services. 5 CMS does not
make separate payments for these directly related and integral services when performed as a
packaged service. The Final Rule identified these packaged services by the revenue codes that
hospitals usually use to bill Medicare for these services, not by the HCPCS codes. The Final
Rule identified nonchemotherapy intravenous infusion therapy (revenue code 0260) as a
packaged service when performed in conjunction with a related outpatient surgical procedure. 6

For 104 claims, the hospital billed and received payment for 130 nonchemotherapy infusion
therapy services provided during outpatient surgical procedures. These infusion therapy services
were not separately billable by the provider or payable by Medicare. As a result, the hospital
received overpayment totaling $9,898.

RECOMMENDATIONS

We recommend that the hospital:

      •    return the $34,059 for the 315 outpatient procedure overpayments and

      •    review claims with these outpatient services paid by the Medicare contractor after
           December 31, 2007, and return any overpayments identified.

HOSPITAL COMMENTS

In written comments, the hospital described the actions it had taken and said that it would
voluntarily refund the identified overpayments. The hospital stated that it received these
overpayments because the billing and coding for these services in its “CDM” (charge description
master) were not accurate. The hospital’s comments are included in the Appendix.




5
    See 65 Fed. Reg. 18433, 18450 (April 7, 2000).
6
    See 65 Fed. Reg. 18433, 18484 (April 7, 2000).


                                                     5
APPENDIX
                                                                                                Page 1 of3
                              APPENDIX: WASHINGTON HOSPITAL CENTER COMMENTS
;   "     _   _u, --­   t   III
              MedStar Health
              Office of Corporate 

              Business Integrity 


              April 26, 2010


              Bernard Siegel, Audit Manager
              Department of Health & Human Services
              Office of the Inspector General
              Office of Audit Services, Region ill
              Public Ledger Building, Suite 316
              Philadelphia, PA 19106-3499

              RE: Report # A-03-1O-10002

              Dear Mr. Siegel:

            The purpose of this letter is to provide a narrative response relating to the above Report,
        which relate to claims paid under Medicare's Hospital Outpatient Prospective Payment System
        (HOPPS) at Washington Hospital Center. We will outline herein our understanding of the cause
        of the errors as well as actions being taken by MedStar Health to correct these issues going
        forward.

            As part of our process for reviewing the claims in question, McdStar Health contracted with
        an outside healthcare auditing company to perform a comprehensive, independent review of the
        services that were identified in your Report. We had the services reviewed in accordance with
        the methodology outlined by our office, and those results have already been provided to you.

             Please note that the billing and coding for some of these services, based on the date of
        service, occurred during the tenure of staff that are no longer with MedStar Health.

            Infusion Therapy Packing Issue - During outpatient "surgery" procedures, the patient
        usually receives infusion therapy for hydration purposes and other inject able drugs, including
        anesthesia, are often administered through these intravenous "connections." In this sense,
        infusion therapy is part of the surgery procedure and not a separate and distinct medical
        procedure.

        We identified the infusion charge on the claim for one unit is billed with revenue code 260­
        Qo081. On detail there are two charges that roll into the revenue code 260. These service codes
        are for IV infusion up to I hour and IV infusion 2-4 hours. Both carried a 260 revenue code at
        the time. The service codes for Infusion Therapy were inactivated 3/17/05.




                                    5565 Sterrett Place 3 Td Floor, Columbia, Matylalld 21044
                                          Phone: 410-772-6604 - Fax: 410- 772-66/ J
                                                                                       Page 2 of3



    Although the services were provided, and the documentation supports the services, the billing
was incorrect. We reviewed the charge description master, to ensure it had been corrected
regarding coding assignment for these services. Unfortunately, the billing errors occurred at the
point of charge entry that reflects back through the mapping of our CDM, where charges were
not bundled appropriately. We did not identify specific patterns of abuse, and this issue appears
to have been corrected on 3117/05 with the re-mapping of the CDM.

   Action Plan: We propose the following actions:

           • 	 We will have OUf auditing company perform another round of random audits, for
               these services that occurred in 2008 and 2009. We will review a sample of 25
               number of services;
           • 	 Update or create any policies and procedures that may be lacking in specific
               detail;
           • 	 Provide education to all affected staff and billing offices in the appropriate
               documentation and billing for these services; and
           • 	 We will voluntarily refund any overpayments identified.

    Infusion Therapy Quantity Issue - For claims with infusion therapy charges that did not meet
the criteria of a "packaged service" we determined whether the hospital billed for, and Medicare
paid for, more than one unit of service per day. Medicare policy is to pay for one infusion
therapy service per day, regardless of the number of infusion liquids that were administered. If
infusion therapy is started at two distinct times during the day, then both would be covered.

This issue is was resolved on 3/17/05 by re-mapping the COM to now bill based on units instead
of time. We will, however, take the following steps to verify that appropriate controls and
processes are in place.

   Action Plan: We propose the following actions:

       • 	 We will have our auditing company conduct another round of random audits, for
           services occurring in 2008 and 2009. We will have 25 number of services reviewed;
       • 	 Update or create any policies and procedures that may be lacking in sufficiency,
           specifically, we will ensure that the policies and procedures require that the start and
           stop times for chemotherapy are documented.
       • 	 Provide education to all affected staff at both the hospital and billing office in the
           appropriate documentation and billing for these services; and
       • 	 We will make a voluntary refund any overpayments identified.

Blood transfusion CRCPCS Code 36430) - The error in this instance was that 2 -3 units were
charged instead of one. The charges for blood administration and transfuse bloodlblood compo
Both service codes have a CPT code of 36430. The UB-92 Editor recommends using revenue
code 391 for CPT code 36430 which is attached to both service codes. This has been identified
as an issue caused by our CDM mapping. This is not an issue in the billing to Medicare because
the Medicare Administrative Contractor, Highmark Medicare Services, is using the CMS
Medically Unnecessary Edits to stop this type of billing from going through, so there are no
overpayments for these services going through at the present time. Because of the CMS edits,
there have been no additional overpayments to repay.
                        5565 Sterrett Place 3mFloor, Columbia, Maryland 21044
                              Phone: 410·772·6604 - Fax: 410·772·6611
                                                                                  Page 3 of3




   Action Plan - We propose the following action steps:
      • 	 We will have our auditing company conduct another round of random audits, for
          services occurring in 2008 and 2009. We will have 25 number of services reviewed;
      • 	 Provide education to all affected staff at both the hospital and the hilling office
          regarding the correct hilling for these services
      • 	 We will make a voluntary refund if any overpayments are identified.

   Please let us know if you have any questions or need any additional information. Thank you.




 u an Walberg, MPA JD CHC
C rporate Compliance Officer
  edStar Health
Phone: (410) 772-6605
Fax: (410) 772-6611
Susan.L.Walberg@medstar.net




                       5565 Sterrett Place 3,d Floor, Columbia, Maryland 21044
                             Phone: 410-772-6604 - Fax: 410-772-6611
